            Office Of Inspector General




March 29, 2005

VICTORIA A. LIPNIC
ASSISTANT SECRETARY
 EMPLOYMENT STANDARDS ADMINISTRATION

SUBJECT: Audit Report - Impact of Office of Workers’ Compensation Programs
         Medical Fee Schedule on Postal Service Medical Costs
         (Report Number HM-AR-05-002)

This report presents the results of the Postal Service, Office of Inspector General’s
(OIG) self-initiated audit of the Department of Labor’s (DOL) Office of Workers’
Compensation Programs (OWCP) Medical Fee Schedule (Project Number
04YN001HM000). The overall objective of the audit was to determine the impact of the
fee schedule for physicians’ professional services on the Postal Service’s rising medical
costs for chargeback years (CBYs)1 1997 to 2003.2 Specifically, we determined the
extent to which:

1. The amounts OWCP paid medical providers exceeded the medical fee schedule for
   physicians’ professional services (maximum allowable amounts)3 for medical
   charges,4 and the reasons.

2. Medical charges did not have maximum allowable amounts established, and the
   reasons.

3. OWCP’s medical payments were comparable to medical payments made by the
   Texas Workers’ Compensation Commission (TWCC)5 for similar services.

We concluded that overall the medical fee schedule for physicians’ professional
services had a positive impact on the Postal Service’s medical costs. For those


1
  OWCP’s Chargeback System is the mechanism by which the costs of compensation for work-related injuries and
death are billed annually to employing agencies. The chargeback billing period is from July 1 in one year, to June 30
the following year.
2
  At the beginning of our fieldwork, medical cost data for CBY 2004 was not available.
3
  The fee schedule for physicians’ professional services is a list of medical codes, service descriptions, and the
corresponding maximum allowable amounts.
4
  Medical charges include procedures, services, and supplies billed by providers.
5
  TWCC was selected for comparison purposes because a Postal Service official suggested we focus our review on
states whose workers’ compensation costs are high, such as Texas. In addition, TWCC used a Web site where we
could enter the medical charge code number and obtain the payment amount for that charge.

    1735 N Lynn St.
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Impact of Office of Workers’ Compensation Programs Medical                                      HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs


charges that had a maximum allowable amount established, OWCP paid medical
providers about $939 million less than the maximum allowable amounts for CBYs 1997
to 2003. In addition, OWCP paid medical providers about $528 million less than the
amount providers billed for CBYs 1997 to 2003. Further, although some medical
charges did not have maximum allowable amounts established, OWCP independently
reviewed the charges, resulting in payments made at or below what the providers billed.

We could not determine the extent to which OWCP’s medical payments were
comparable to medical payments made by TWCC because the Postal Injury
Compensation System (PICS)6 did not show the type of facility where the medical
service was provided. This is a key element used by the Texas system for determining
the amounts allowed for medical services. According to an OWCP official, the new
Central Bill Processing service will capture the “Place of Service” (type of facility)
beginning in fiscal year 2006.

                                                  Background
Office of Workers’ Compensation Programs

OWCP is responsible for adjudicating claims and paying compensation, medical,
and death benefits for injured federal workers, including Postal Service employees.
The Federal Employees’ Compensation Act (FECA) covers all medical care that an
employee needs to recover from the effects of a work-related injury, including
hospitalization, nursing services, prosthetic appliances, and the services of an
attendant when required for severe injuries. Payments for medical services are
subject to a schedule of maximum allowable amounts. These benefits are paid
from OWCP’s Employees’ Compensation Fund, which is later reimbursed by federal
agencies through the chargeback billing process.

OWCP Medical Fee Schedule

On behalf of the Postal Service, OWCP pays medical providers a fee for each covered
medical service provided to Postal Service employees who have been injured on the
job.7 Medical services covered by the fee schedule for physicians’ professional services
include payments for medical and other health services furnished by physicians and
other providers for work-related injuries. OWCP regulations state these costs shall not
exceed a maximum allowable amount for such services, as determined by the director,
OWCP. Employees do not have to pay the difference between the maximum allowable
amount set by the fee schedule for physicians’ professional services and the amount
charged by the provider.



6
  The PICS database is a historical repository of workers’ compensation transactions related to Postal Service
employees. PICS data is provided to the OIG by the Postal Service who obtains the data from DOL.
7
  Employees on the periodic rolls have permanent disabilities or injuries that have lasted, or are expected to last, for
over one year.

                                                            2
Impact of Office of Workers’ Compensation Programs Medical                                    HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs


OWCP has established other fee schedules and cost-monitoring mechanisms that were
not evaluated in this audit.

Current Procedural Terminology Codes

Each medical service is identified using the American Medical Association’s (AMA)
uniformly accepted coding system, called the Physicians’ Current Procedural
Terminology (CPT) codes.8 The AMA developed CPT codes in 1966, and the codes
are updated annually to reflect changes in medical practices and technology.

Postal Service Workers’ Compensation Costs

The Postal Service was the largest participant in DOL’s OWCP in CBY 2004,
representing about 30 percent of the total federal workforce that participated. It was
also the largest payee to OWCP with approximately $830 million in payments for the
same year. This is more than 35 percent of the $2.3 billion in total federal workers’
compensation payments. In addition to the $830 million, the Postal Service also paid
chargeback billing costs for the old Post Office Department of $22.9 million, and an
administrative fee9 of $44.5 million. This brings the total CBY 2004 costs to
$897.4 million as shown in Table 1.
                  Table 1. Postal Service Total Workers’ Compensation
                           Costs and Medical Costs for CBY 2004

                                                                  CBY 2004
                           Type of Cost                          (in millions)
                   Postal Service Workers’
                   Compensation and Medical Costs                      $830.0

                   Post Office Department Workers’
                   Compensation and Medical Costs                         22.9

                   Administrative Fee                                     44.5

                    TOTAL                                $897.4
                  Source: DOL OWCP Chargeback Billing Summary.
                  Note: Costs were rounded up.

Postal Service Medical Costs

According to DOL’s OWCP Chargeback Billing Summary, OWCP government-wide
medical costs were $649.9 million for CBY 2004. Of the $649.9 million, the Postal
Service’s medical costs were $308.4 million for the same period (almost 50 percent).


8
  Medicare’s complete coding system is known as the Health Care Financing Administration’s Common Procedural
Coding System. In addition to CPT codes, the system includes codes for medical equipment, prescription drugs,
other services, and items not covered by the AMA CPT codes.
9
  The Postal Service’s administrative fees increased 35.3 percent, from $32.9 million in CBY 2000 to $44.5 million in
CBY 2004.

                                                          3
Impact of Office of Workers’ Compensation Programs Medical                   HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs


As shown in Table 2, the Postal Service’s medical costs increased from $243.8 million
in CBY 2000 to $308.4 million in CBY 2004 (26 percent). However, there was a slight
decrease (5 percent) in medical costs, from $324.8 million in CBY 2003 to
$308.4 million in CBY 2004.
                          Table 2. Postal Service’s Medical Costs - CBYs 2000 to 2004

                                      Medical                                           Percentage
                                                        Percentage        Average       Increase of
                                           Number of     Increase of      Cost per        Cost per
               CBY            Costs          Cases     Medical Costs       Case            Case
               2004         $308,369,576      124,268             -5%     $2,481.48               1%
               2003         $324,773,251      132,012              7%     $2,460.18               7%
               2002         $303,079,919      131,363            11%      $2,307.19               8%
               2001         $274,163,608      128,134            13%      $2,139.66               8%
               2000         $243,796,782      122,699            ------   $1,986.95             ------
            Source: DOL OWCP Chargeback Billing Summary.
            Note: Costs, numbers, and percents were rounded up.


                        Objectives, Scope, and Methodology
We discuss our objectives, scope, and methodology in Appendix B in detail.

                                   Prior Audit Coverage
We did not identify any prior audits related to the objectives of this audit.

                                         Audit Results
Overall, the medical fee schedule for physicians’ professional services and other fee
schedules used by OWCP had a positive impact on the Postal Service’s medical costs.
Specifically, as shown in Table 3, for those charges that had a maximum amount
established, OWCP paid medical providers about $939 million less than the maximum
allowable amounts for CBYs 1997 to 2003.




                                                  4
Impact of Office of Workers’ Compensation Programs Medical                              HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs



            Table 3. Charges With Maximum Allowable Amounts - CBYs 1997 to 2003

                              Total Paid by OWCP on         Difference Between
        Maximum Allowable       Behalf of the Postal        Maximum Allowable                             Average Cost Per
 CBY         Amount                   Service              Amount and Total Paid   Number of Charges          Charge
 1997          $180,446,742             $98,668,662                 $81,778,080           1,571,756                $62.78
 1998          $194,718,395           $105,873,577                  $88,844,818           1,544,637                $68.54
 1999          $276,788,043           $129,218,921                 $147,569,122           1,690,156                $76.45
 2000          $368,008,783           $181,020,709                 $186,988,074           2,052,664                $88.19
 2001          $378,183,358           $199,401,093                 $178,782,265           2,161,366                $92.26
 2002          $327,162,983           $203,029,782                 $124,133,201           2,203,306                $92.15
 2003          $345,520,727           $214,624,331                 $130,896,396           2,253,067                $95.26
TOTAL        $2,070,829,031          $1,131,837,075                $938,991,956          13,476,952                $83.98
Source: PICS.
Note: Costs were rounded up.

Also, as shown in Table 4, although providers charged OWCP $2.2 billion for a
seven-year period, OWCP paid them $1.7 billion. This is about $528 million less than
the amount charged.

            Table 4. Total Workers’ Compensation Paid by OWCP on Behalf of the Postal Service
                     for CBYs 1997 to 2003 (Includes Charges With and Without a Maximum)

                                                          Total Paid by       Difference Between the
                              Total Charged by         OWCP on Behalf of     Total Charged by Providers
                   CBY           Providers             the Postal Service          and Total Paid
                   2003              $462,852,912           $326,788,895                  $136,064,016
                   2002              $408,820,000           $304,611,836                  $104,208,165
                   2001              $356,996,533           $275,400,557                   $81,595,976
                   2000              $315,201,589           $245,902,039                   $69,299,550
                   1999              $255,522,037           $201,938,561                   $53,583,476
                   1998              $235,278,431           $191,158,105                   $44,120,326
                   1997              $215,031,644           $176,040,550                   $38,991,094
                  TOTAL            $2,249,703,146          $1,721,840,543                 $527,862,603
                 Source: PICS.
                 Note: Numbers and costs were rounded up.

Medical Charges Without Maximum Allowable Amounts

Some medical charges did not have maximum allowable amounts established under the
fee schedule for physicians’ professional services. However, these charges were
subject to other cost containment measures including other fee schedules; edits for
duplicate billing; reviews for appropriateness of services based on claimant’s age,
gender, and accepted condition; and edits to prevent unbundling of procedures and to
prevent billing for mutually exclusive procedures. Independent reviews are also
performed based on prevailing reasonable and customary charges in the area where
the service was provided. In fact, the data showed that OWCP paid providers $7 million
less than they billed. OWCP reviewed charges and applied fee schedules to inpatient
hospital bills and to pharmacy bills separate from the OWCP Medical Fee Schedule for
physicians’ professional services, or maximums otherwise established under its

                                                       5
Impact of Office of Workers’ Compensation Programs Medical                                 HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs


authority to do so. This resulted in payments made at or below what the providers
billed.

As shown in Table 5, of the $1.7 billion paid by OWCP on behalf of the Postal Service
(see Table 3), $590 million (34 percent) from CBYs 1997 to 2003 represented medical
charges that did not have maximum allowable amounts established by OWCP.

            Table 5. Charges Without Maximum Allowable Amounts - CBYs 1997 to 2003

                                             Total Paid                                               Average
                     Total Charged     by OWCP on Behalf of Total Charged Minus        Number of      Cost Per
          CBY         by Providers       the Postal Service       Total Paid            Charges       Charge
          2003          $115,306,290            $112,164,565              $3,141,725        680,652     $164.79
          2002          $103,682,504            $101,582,054              $2,100,450        675,888     $150.29
          2001           $77,146,742             $75,999,463              $1,147,279        546,930     $138.96
          2000           $65,223,964             $64,881,330                $342,634        479,089     $135.43
          1999           $72,842,395             $72,719,640                $122,755        547,237     $132.89
          1998           $85,494,054             $85,284,528                $209,526        539,415     $158.11
          1997           $77,710,652             $77,371,889                $338,763        528,845     $146.30
         TOTAL          $597,406,601            $590,003,469              $7,403,132      3,998,056     $147.57
      Source: PICS.
      Note: Costs were rounded up.

According to DOL officials and the May 2004 OWCP Medical Fee Schedule for
physicians’ professional services, the reasons some medical procedures did not have
maximum allowable amounts established varied. For example, DOL officials told us
some medical procedures do not have Relative Value Units (RVU)10 assigned by
Medicare and as such they are independently reviewed and may be paid at or below
what the provider charged.

Another reason is that some charges, such as hospital inpatient, are determined by fee
schedules other than the OWCP Medical Fee Schedule for physicians’ professional
services, and are subject to a reimbursement schedule based on the Medicare
Prospective Payment System. That system assigns services to diagnostic-related
groups and adjusts rates for individual hospitals according to their specific cost index.
See Appendix C for a description of other fee schedules and services.

Further, where the time, effort, and skill required to perform a particular procedure vary
widely from one situation to the next, OWCP may construct its own RVU values based
on available data. In this case, the allowable charge for the procedure will be set
individually based on consideration of a detailed medical report and other evidence. At
its discretion, OWCP may set fees without regard to schedule limits for specially
authorized consultant examinations, for examinations performed, and for other specially
authorized services.

10
  RVUs represent the relative skill, effort, risk, and time required to perform a medical procedure. RVUs are based
on three components related to the cost of providing the service described in each CPT code. The three components
are a physician/practitioner work component, a practice expense component, and a professional liability insurance
expense component.

                                                         6
Impact of Office of Workers’ Compensation Programs Medical           HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs



Management’s Comments

OWCP management reviewed the report and had no comments. Management also
stated they appreciated the cooperation and courtesies afforded their managers and
staffs by the audit team, and they thanked the OIG for the opportunity to comment.

We also appreciate the cooperation and courtesies provided by your staff. If you have
any questions or need additional information, please contact Chris Nicoloff, Director,
Human Capital, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Suzanne F. Medvidovich
    Dewitt O. Harris
    Gordon Heddell
    Shelby Hallmark
    Steven R. Phelps




                                                  7
Impact of Office of Workers’ Compensation Programs Medical   HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs


                           APPENDIX A. ABBREVIATIONS
AMA            American Medical Association
CBY            Chargeback Year
CPT            Current Procedural Terminology
DOL            Department of Labor
FECA           Federal Employees' Compensation Act
OIG            Office of Inspector General
OWCP           Office of Workers' Compensation Programs
PICS           Postal Injury Compensation System
RVU            Relative Value Units
TWCC           Texas Workers’ Compensation Commission




                                                  8
Impact of Office of Workers’ Compensation Programs Medical         HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs


       APPENDIX B. OBJECTIVES, SCOPE, AND METHODOLOGY
The overall objective of the review was to determine the impact of OWCP’s medical fee
schedule for physicians’ professional services on the Postal Service’s rising medical
costs for CBYs 1997 to 2003. Specifically, we determined the extent to which:

1. The amounts OWCP paid medical providers exceeded the medical fee schedule for
   physicians’ professional services (maximum allowable amounts) for medical
   charges, and the reasons.

2. Medical charges did not have maximum allowable amounts established, and the
   reasons.

3. OWCP’s medical payments were comparable to medical payments made by TWCC
   for similar services.

To accomplish our objectives, we reviewed and analyzed medical charges extracted
from PICS for CBYs 1997 to 2003. We also reviewed OWCP policies and procedures
and interviewed OWCP officials.

To determine the extent to which the amounts OWCP paid medical providers exceeded
the medical fee schedule for physicians’ professional services (maximum allowable
amounts), we identified charges that had a maximum amount established and
calculated the dollar difference between those amounts and what OWCP paid on behalf
of the Postal Service. To determine the reasons why the maximum amounts were
exceeded, we reviewed OWCP policies and procedures and interviewed OWCP
officials.

To determine the extent to which medical charges did not have maximum allowable
amounts established, we used, as an indicator, those charges that had zero as their
maximum allowable amount. We discussed those charges that had zero as the
maximum allowable amount with OWCP officials. To determine the reasons why there
were no maximum allowable amounts (or why zero was the maximum allowable
amount); we reviewed OWCP policies and procedures and interviewed OWCP officials.

We could not determine the extent to which OWCP’s medical payments were
comparable to medical payments made by the TWCC because the PICS data did not
show the type of facility where the medical service was provided. This was a key
element in the Texas system when determining the allowed amount. We selected
TWCC because a Postal Service official suggested we focus our review on states
whose workers’ compensation cost is high, such as Texas. In addition, TWCC used a
Web site where we could enter the medical charge code number and obtain the
payment amount for that charge.




                                                  9
Impact of Office of Workers’ Compensation Programs Medical              HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs


This audit was conducted from August 2004 through March 2005 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate DOL, OWCP, and Postal Service
management officials and included their comments where appropriate.

Data Testing and OWCP Formula

For those charges that had zero as the maximum allowable amount, we tested the data
to determine if the records contained data needed to apply the OWCP formula. For
those records where the maximum allowable amount did not equal zero, after applying
the formula, we determined if the amounts OWCP paid were greater than or less than
the amount to be paid based on the application of the OWCP formula. To accomplish
this, we used CBY 2003 charges that had AMA CPT codes. We compared the
difference between the amounts OWCP paid (per the PICS data) to what the maximum
allowable amount would be based on the OWCP formula.

The OWCP formula can be used to determine maximum allowable amounts. Each
procedure subject to a maximum allowable amount under the OWCP Medical Fee
Schedule for physicians’ professional services has been assigned three relative values:
work (W), practice expense (PE), and malpractice expense (MP). Each of these three
values is multiplied by three related values for geographic variance in procedure costs
called geographic practice cost index values: work (w), practice expense (pe), and
malpractice expense (mp). The resultant value is multiplied by a conversion factor (CF)
to convert it into a dollar amount. The OWCP formula is:

       Maximum Allowable Amount = [(Wrvu*wgpci) + (PErvu*pegpci) + (MPrvu*mpgpci)]*CF

In CBY 2003, there were 114,103 charges that had zero as the maximum
allowable amount. We tested the 114,103 charges against what the maximum
allowable amount would have been had the formula been applied. Our testing showed
that, of the 114,103 charges, we were able to calculate (or apply the formula) to
113,355 (99 percent) of the 114,103 charges because the records contained the data
needed to apply the formula. Of the 113,355 charges, the data showed that the PICS
data’s maximum allowable amount of zero for 93,195 charges (82 percent) matched the
maximum allowable amount when the formula was applied (see the table below).

After applying the formula, there were 20,160 charges that had a maximum allowable
amount that was not equal to zero. Of the 20,160, the amount OWCP paid was:

   •     Less than or equal to the amount to be paid, according to the formula for
         12,237 charges.

   •     Greater than the amount to be paid, according to the formula, for 7,923.




                                                  10
    Impact of Office of Workers’ Compensation Programs Medical              HM-AR-05-002
     Fee Schedule on Postal Service Medical Costs




                       Total Number of Charges                                       114,103
Could not apply the formula.                                                           748
                                                                             (There was no match
                                                                               for either the CPT
                                                                                code or the ZIP
                                                                                      Code)
Could apply the formula.                                                             113,355


               Number of Charges – Formula Applied                                  113,355
Data did not match PICS data.                                                       20,160
                                                                                  (Calculated
                                                                               maximum allowable
                                                                              amount did not equal
                                                                                     zero)
Data matched PICS data.                                                             93,195
                                                                                  (Calculated
                                                                               maximum allowable
                                                                                amount did equal
                                                                                     zero)

 Number of Charges – Calculated Maximum Allowable Did Not Equal                      20,160
                               Zero
Amount OWCP paid less than or equal to the amount paid based on                      12,237
formula applied.
Amount OWCP paid greater than the amount paid based on formula                        7,923
applied.

    Based on the results of this test, we concluded the data were sufficiently reliable to be
    used in meeting the objectives. We discussed our observations and conclusions with
    appropriate management officials and included their comments where appropriate.




                                                      11
Impact of Office of Workers’ Compensation Programs Medical            HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs


          APPENDIX C. OTHER FEE SCHEDULES AND SERVICES
The payments of medical bills are made in accordance with medical fee schedules
established by OWCP. The OWCP Medical Fee Schedule is applicable to charges for
services by medical professionals. OWCP also applies a separate fee schedule to
certain durable medical equipment, supplies, and other items or services covered under
the program. The services covered by other fee schedules are for one of the following:
(1) Inpatient Services, (2) Outpatient Services, (3) Ambulatory Surgical Center Services,
(4) Prescription Drugs, (5) Other Services, and (6) Home Health Services.

Inpatient Services: Inpatient hospital services provided under FECA are subject to a
reimbursement schedule based on the Medicare Prospective Payment System. That
system assigns services to diagnostic-related groups and adjusts rates for
individual hospitals according to their specific cost index. OWCP uses the Medicare
diagnostic-related groups program and their hospital cost indices, but has devised its
own reimbursement formulas. Inpatient services not covered under the Medicare
Prospective Payment System are reimbursed under a formula that is based on the
cost-to-charge ratio data tables published by the Centers for Medicare and Medicaid
Services for rural and urban hospitals in each state.

Outpatient Services: Ancillary charges for hospital outpatient services (emergency
room, recovery room, operating room) are paid under the appropriate Revenue Center
code. All outpatient professional services must be billed under the appropriate
CPT/Healthcare Procedure Coding System/OWCP procedure codes.

Ambulatory Surgical Center Services: Bills from Ambulatory Surgical Centers are paid
using a multiplier of 175 percent for each service charged, with the highest priced
procedures to be paid at 100 percent and secondary, tertiary and all other procedures at
50 percent of the maximum allowable amounts. Actual payment is based on the lesser
of the calculated payment rate or the billed charged.

Prescription Drugs: The maximum allowable amounts for pharmacy billings are based
on the Red Book Average Wholesale Prices for prescription drugs plus a dispensing
fee, or the billed amount, whichever is less.

Other Services: OWCP will continue to exercise its current authority to establish
maximum allowable amounts for certain services, items of durable medical equipment,
facility use fees, and other charges not currently on the schedule. Providers will be
notified of major schedule changes. All fees without an OWCP established maximum
allowable amount are subject to review based on prevailing reasonable and customary
charges in the area where the service was provided.

Home Health Services: Home health services are paid under the appropriate
Healthcare Common Procedure Coding System codes.




                                                  12
Impact of Office of Workers’ Compensation Programs Medical   HM-AR-05-002
 Fee Schedule on Postal Service Medical Costs


               APPENDIX D. MANAGEMENT’S COMMENTS




                                                  13
